     Oversight Review        June 29, 2009 


         Report on Quality Control Review 

of Deloitte & Touche, LLP FY 2007 Single Audit of 

   Battelle Memorial Institute and Subsidiaries 



            Report No. D-2009-6-007

Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at www.dodig.mil/audit/reports or contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax
(703) 604-8982.

Suggestions for Future Reviews

To suggest ideas for or to request future reviews, contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
fax (703) 604-8982. Ideas and requests can also be mailed to:

                         Office of the Assistant Inspector General
                              for Audit Policy and Oversight
                         Department of Defense Inspector General
                           400 Army Navy Drive (Room 833)
                                Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
by sending an electronic message to Hotline@dodig.mil; or by writing to the Defense
Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and
caller is fully protected.
                                             INSPECTOR GENERAL 

                                           DEPARTMENT OF DEFENSE 

                                            400 ARMY NAVY DRIVE 

                                       ARLINGTON, VIRGINIA 22202-4704 





                                                                                          JUN 2 9 Z009
Board of Directors
Battelle Memorial Institute

Vice President-Corporate Controller
Battelle Memorial Institute

Partner
Deloitte & Touche, LLP

SUBJECT: Report on Quality Control Review of Deloitte & Touche, LLP FY 2007 Single
         Audit of Battelle Memorial Institute and Subsidiaries (Report No. D-2009-6-007)

        We are providing this report' for your information and use. We considered management
comments on a draft ofthis report when preparing the final report. As the cognizant Federal
agency for Battelle Memorial Institute and Subsidiaries (Battelle), we performed a review of the
Deloitte & Touche, LLP single audit and supporting workpapers for the fiscal year ended
September 30, 2007. The purpose of our review was to determine whether the audit was
                                                   l
conducted in accordance with auditing standards and the auditing and reporting requirements of
Office of Management and Budget Circular A-133, "Audits of States, Local Govermnents, and
Non-Profit Organizations," (Circular A-133). Appendix A contains additional background,
scope and methodology for the review and Appendix B lists the applicable compliance
reql)irements.

Background. Battelle is a nonprofit organization formed in 1925 and headquartered in
Columbus, Ohio. Battelle's major source of revenue is from technology-based research,
management, commercialization, and education services to govermnent and industrial clients.
Battelle expended $742.2 million in Federal awards for the fiscal year ended September 30, 2007
under one Federal program, the Research and Development Cluster. Ofthe $742.2 million,
$474.0 million was expended for Department of Defense programs.

Review Results. Deloitte & Touche did not fully comply with auditing standards and
Circular A-133 requirements for the Battelle FY 2007 single audit. Specifically, the auditors did
not adequately plan the audit or adequately perform and document audit procedures for eight of
ten applicable compliance requirements (Findings A & B). Because of the deficiencies identified
in our review, additional audit work is needed before Federal agencies can rely on the audit to
monitor and manage Federal award programs.




1 Auditing standards include both Government Auditing Standards and the American Institute of Certified Public
Accountants audit standards.
As a result of our discussions with Deloitte & Touche, the auditors took immediate corrective
actions on the deficiencies cited in this report. During the period September 2008 through
December 2008, Deloitte & Touche provided our office with documentation and further
explanation of audit work and additional audit procedures performed. The supplemental audit
work partially corrected the deficiencies identified; however, further audit procedures are needed
to support audit conclusions and the overall opinion on compliance for the research and
development cluster. Specifically, additional risk assessment procedures are needed to
determine the design and extent of further audit procedures necessary to support the conclusions
for the equipment; procurement, suspension and debarment; and subrecipient monitoring
requirements. Additional procedures are also necessary to support the conclusions on Battelle's
responsibility to perform specific monitoring procedures of subrecipients during award
performance. During our exit conference with Deloitte & Touche, we also discussed
opportunities for future enhancements to the single audit. These enhancements are discussed in
the “Other Matters” section of this report.

Battelle generally met Circular A-133 reporting requirements except that the Schedule of
Expenditures of Federal Awards did not fully identify Federal awards received as a subrecipient
or awards by major subdivison (Finding C).

Management Comments and DoD IG Response. The Audit Partner, Deloitte & Touche,
and the Vice-President-Corporate Controller, Battelle Memorial Institute, agreed to take the
recommended actions. Management comments were responsive and conform to requirements;
no additional comments are needed. The Deloitte & Touche comments state that a risk
assessment and further audit procedures were performed on the equipment; procurement,
suspension and debarment; and subrecipient monitoring requirements. Once provided, the DoD
IG will review working paper documentation on the additional audit procedures performed to
determine whether Federal agencies can rely on the FY 2007 single audit to monitor and manage
Federal award programs.


Findings
Finding A. Audit Planning and Performance. Deloitte & Touche did not adequately plan the
audit because the sampling methodology did not comply with auditing standards and Circular
A-133 requirements for testing internal control over compliance and compliance with each
applicable compliance requirement in the research and development cluster. In addition, the
auditors did not perform adequate procedures for the items tested for the cash management and
subrecipient monitoring requirements because the procedures did not address the objectives as
defined in the Circular A-133 Compliance Supplement. As a result, we were unable to
determine if there was sufficient competent evidence to support the auditor's conclusions that
Battelle complied with the Federal requirements for cash management; equipment; procurement,
suspension and debarment; and the monitoring of subrecipient awards.




                                                2

Circular A-133 requires the auditor to perform procedures to obtain an understanding of internal
control over compliance for Federal programs sufficient to plan the audit to support a low
assessed level of control risk and perform the test of controls as planned. Based on the test of
controls, the auditor should determine the amount of substantive testing needed to provide
sufficient evidence to determine compliance with laws, regulations, and the provisions of
contracts or grant agreements that may have a direct and material effect on its major programs.

The American Institute of Certified Public Accountants audit standards on sampling,
AU §350.17 states that "when planning a particular sample, the auditor should consider the
specific audit objective to be achieved and determine the audit procedures, or combination of
procedures, to be applied to achieve that objective. The auditor should determine that the
population from which the sample is drawn is appropriate for the specific audit objective."

        Audit Planning. The Deloitte & Touche auditors did not plan the testing of internal
control to support a low assessed level of control risk for the objectives relevant to each
compliance requirement as required by Circular A-133. Rather, the auditors assessed the risk for
allowable activities and allowable costs and determined that a sample size of 50 would provide
sufficient evidence to support the conclusions on internal control and compliance. They then
planned to use the same sample to test the internal control and compliance objectives for the
following additional five requirements: cash management; equipment; period of availability;
procurement, suspension and debarment; and subrecipient monitoring. However, the auditors
were unable to test all items in the sample to the objectives for three of the additional five
compliance requirements. As a result auditors only tested 7 items for equipment, 13 items for
procurement, 17 items for suspension and debarment, and 9 items for subrecipient monitoring.
Because the auditors did not perform the required risk assessment procedures on each
compliance requirement, there was no documented basis to suggest that these sample sizes
provided sufficient evidence to support the conclusions for these three requirements.

After the site visit, Deloitte & Touche explained they never planned to test 50 selections for each
compliance requirement. Rather, their audit plan was to select 50 items that represented
characteristics of the entire population and test only those selections relevant to the individual
compliance requirements. Since this approach is not consistent with auditing standards and
Circular A-133 requirements we advised Deloitte & Touche that additional internal control and
compliance procedures are needed to support the specific audit conclusions for the equipment;
procurement, suspension and debarment; and subrecipient monitoring requirements and the
overall opinion on compliance for the research and development cluster. These procedures
should include an assessment of the risks of noncompliance for internal controls relevant to the
objectives of the compliance requirement and be used as a basis for determining the design and
extent of further audit procedures needed to support the conclusions for each of the three
compliance requirements.

        Performance of Internal Control and Compliance Testing. In addition to the overall
deficiency in the sampling approach used, for the items tested, Deloitte & Touche did not
perform adequate procedures on internal control over and compliance with subrecipient
monitoring requirements or perform adequate procedures for the cash management requirement.



                                                 3

During our site visit, we requested the auditor to provide additional explanation and support for
the audit procedures performed; however, the auditor was unable to provide additional
information to mitigate the deficiencies identified.

               Cash Management Compliance Requirements. The Deloitte & Touche
auditors did not perform adequate audit procedures to determine Battelle's internal control over
and compliance with the cash management requirements as they relate to cost reimbursement
contracts. Cost reimbursement contracts represent approximately 76% of all Battelle contracts.
The objective of this requirement for organizations funded on a reimbursement basis is to verify
that program costs are paid for by the organization before reimbursement is requested from the
Federal government.

The auditors documented understanding of Battelle’s control processes did not focus on the cost
reimbursement objectives. As a result the auditors did not identify or test controls in place to
ensure costs are paid by Battelle before requesting government reimbursement. During our site
visit, the auditors provided an explanation on procedures performed in the financial statement
audit as support for internal control testing for this requirement. However, the explanation was
either not relevant or failed to show a relationship between the controls tested and the cost
reimbursement requirement. For example, the auditors directed us to a review of the aging of
accounts payable, but this workpaper did not identify any internal controls tested. The auditors
also identified the internal control testing of automated match controls and match exception
reports but could not explain how the matching controls ensure that costs are paid by Battelle
before requesting government reimbursement. For compliance testing, the auditors compared
the date government reimbursement was requested to the date that the government
reimbursement was received. This testing does not meet the objectives for this requirement
because it does not provide any evidence that Battelle paid the costs before requesting
reimbursement from the government.

               Deloitte & Touche Corrective Actions. In November 2008, Deloitte & Touche
provided our office with documentation on additional audit procedures performed to correct the
deficiencies we identified in the audit of the Cash Management compliance requirement. Based
on our review of the supporting documentation provided and additional verbal explanations
provided by Deloitte & Touche, we consider the Deloitte & Touche corrective actions sufficient
for the FY 2007 audit.

               Subrecipient Monitoring Compliance Requirements. The workpapers
demonstrated that the auditor obtained an understanding of internal control over subrecipient
monitoring requirements. However, for the nine items tested, the auditors did not perform
adequate audit procedures to test the internal control and compliance objectives of this
requirement. The objectives of this compliance requirement include determining whether
Battelle properly identified Federal award information and compliance requirements in
subrecipient award documents, monitored subrecipient activities during the award period to
provide reasonable assurance that subrecipients administered pass-through awards in compliance




                                                4

with award requirements, ensured that subrecipients met Circular A-133 audit requirements, and
took the required actions on audit findings, including evaluating the effect of any findings on
Battelle awards.

For the transactions tested, the workpaper documentation supporting the review of Battelle's
actions to monitor subrecipient awards during the award period was limited to a statement that
the type of monitoring performed by Battelle is dependent upon the subrecipient. No additional
information was provided to substantiate specific testing on Battelle's monitoring activity. In
addition, we were unable to ascertain from the workpapers how the auditors tested the other
objectives of the requirement such as whether award information was properly identified in
subrecipient award documents and whether Battelle ensured that subrecipients met
Circular A-133 audit requirements or took actions to evaluate the effect of subrecipient findings
on its Federal awards.

                Deloitte & Touche Corrective Actions. Between September and November
2008, the auditors provided additional explanations on the internal control and compliance
testing performed on the identification of award information and subrecipient audit requirements
and findings. Because we could tie the auditor’s explanations to the controls identified in the
written understanding and the audit plan, we determined that the procedures performed on the
selections tested, although not adequately documented, met objectives. However, the auditors
did not provide any additional information or perform additional procedures to support the
conclusions on Battelle's responsibility to perform specific monitoring procedures during award
performance.

Finding B. Documentation of the Federal Program Audit. The Deloitte & Touche auditors
did not adequately document the internal control and compliance testing for the activities
allowed/unallowed, allowable costs/cost principles, reporting, and special tests and provisions
requirements. In addition, for the allowability of costs the auditors did not identify the specific
cost principle criteria under which the costs were reviewed for allowability. The auditors also
did not include adequate documentation to support the conclusions on the accuracy and
completeness of the Schedules of Expenditures of Federal Awards. As a result, we spent
significant time obtaining verbal explanations and reviewing additional information provided by
the auditors that was not included in the Federal program audit workpapers to enable us to
determine that there was sufficient evidence to support Deloitte & Touche audit conclusions on
these requirements.

Government Auditing Standards require that sufficient detail be included in the audit
documentation to provide an experienced auditor who has had no previous connection with the
audit to ascertain from the documentation the evidence that supports the auditors’ significant
judgments and conclusions. Audit documentation should be appropriately detailed to provide a
clear understanding of its purpose and source and should be appropriately organized to provide a
clear link to the findings, conclusions, and recommendations.

Conclusion. The Deloitte & Touche audit work did not meet the requirements of Circular A­
133, the related Compliance Supplement, and auditing standards. As a result, Federal agencies



                                                 5

and pass-through entities cannot rely on the audit report for assurance that Battelle is managing
Federal awards in compliance with laws, regulations, and award provisions. We spent
considerable time reviewing additional documentation and discussing work paper content with
the auditors to make our determinations on the adequacy of the audit work. Deloitte & Touche
also spent additional time supporting and re-performing the audit work. Because of the
deficiencies discussed in this report, we conclude that the FY 2007 audit was not adequately
supervised and that additional supervision is needed in future single audits to ensure that audit
staff work complies with auditing standards and Circular A-133 requirements.

Recommendations and Management Comments
   1.	 We recommend that the Audit Partner, Deloitte & Touche, LLP:

             a.	 Perform a risk assessment and further audit procedures, at no additional
                 cost to the government, to determine the adequacy of Battelle Memorial
                 Institute's internal control over and compliance with the equipment;
                 procurement, suspension, and debarment; and subrecipient monitoring
                 compliance requirements for the FY 2007 audit.

             b.	 Provide the Department of Defense Office of Inspector General with the
                 working paper documentation that demonstrates corrective actions taken
                 to address the reported deficiencies on the FY 2007 audit of the equipment;
                 procurement, suspension, and debarment; and subrecipient monitoring
                 compliance requirements.

             c.	 Revise the single audit reporting package to reflect, at a minimum, the date
                 additional audit work was completed and forward the revised reporting
                 package and signed Data Collection Form to Battelle Memorial Institute to
                 file with the Federal Audit Clearinghouse.

             d.	 Provide the Department of Defense Office of Inspector General with the
                 working paper documentation from the FY 2008 single audit that
                 demonstrates corrective actions taken to address the planning,
                 performance and documentation deficiencies identified in the review of
                 internal control and compliance and the documentation of the review of the
                 Schedule of Expenditures of Federal Awards.

             e.	 Strengthen existing or implement additional Deloitte & Touche quality
                 procedures that provide for the adequate supervision of audit staff
                 performing future Office of Management and Budget Circular A-133 single
                 audits so that future audits comply with auditing standards and the audit
                 requirements of the Office of Management and Budget Circular A-133 for
                 the planning, performance, and documentation of the audit.

Deloitte & Touche Comments. Deloitte & Touche agreed to take the recommended actions.


                                                 6

Finding C. Schedule of Expenditures of Federal Awards. Battelle did not correctly prepare
the FY 2007 Schedule of Expenditures of Federal Awards because the schedule did not
separately identify all pass-through awards received by Battelle and did not identify all Federal
awards by major subdivison in accordance with Circular A-133 requirements. Circular A-133
section §.310(b) requires for awards received as a subrecipient, the identifying number assigned
by the pass-through entity be included in the schedule. In addition, for research and
development cluster, Federal awards must be shown either by individual award or by Federal
agency and major subdivision within the Federal agency.

Battelle grouped multiple awards received from a pass-through entity rather than separately
identifying the awards along with the specific identifying number the pass-through entity
assigned to the award. Additionally, Battelle identified some expenditures by major subdivison
for awards received directly from Federal agencies; however, multiple other direct awards and all
awards received as a subrecipient were not identified by major subdivision. For example,
Battelle identified all DoD direct awards received from the Army, Navy, and Air Force as
separate line items in the Schedule of Expenditures of Federal Awards, but grouped DoD awards
received from multiple DoD agencies into one line item identified as "DoD Other". Unless there
is a reason to protect the identity of an awarding agency, awards in the research and development
cluster should be shown either by individual award or by major subdivision within the Federal
agency. This information is required so that Federal awarding agencies and pass-through entities
can use the Schedule of Expenditures of Federal Awards to monitor awards.

Recommendations and Management Comments
   2.	 We recommend that the Vice President, Corporate Controller, Battelle Memorial
       Institute:

             a.	 Prepare the Schedule of Expenditures of Federal Awards according to the
                 Office of Management and Budget Circular A-133 requirements for future
                 single audits. Specifically, the Schedule of Expenditures of Federal Awards
                 must include the identifying number assigned by the pass-through entity
                 and awards should be shown either by individual award or by Federal
                 agency and major subdivision within the Federal agency.

             b.	 Direct Deloitte & Touche, LLP, to perform additional procedures to
                 address deficiencies identified in the FY 2007 single audit of Battelle
                 Memorial Institute at no additional cost to the Government.

             c.	 File the revised FY 2007 Reporting Package and signed Data Collection
                 Form with the Federal Audit Clearinghouse and notify the DoD Office of
                 the Inspector General upon completion.

Battelle Memorial Institute Comments. The Vice-President-Corporate Controller, Battelle
Memorial Institute, agreed to take the recommended actions.


                                                7

Other Matters. To enhance future single audits, we suggest the Deloitte & Touche auditors
coordinate directly with the Defense Contract Audit Agency when planning the audit. While the
auditors reviewed Defense Contract Audit Agency audit reports obtained from Battelle, Deloitte
& Touche should ensure that copies of all audit reports that could impact the audit period be
reviewed to achieve a more efficient and effective audit.

        We appreciate the courtesies extended to the audit staff. For additional information on
this report, please contact Ms. Janet Stem at (703) 604-8750 (DSN 664-8750).



                                              t../   ±
                                                     /C




                                             C~~lyn R. Davis
                                                               .4 A
                                                              /1. IUrJ-V'Co

                                             Assistant Inspector General
                                              for Audit Policy and Oversight




                                                8

Appendix A. Quality Control Review Process


Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and Local Governments and nonprofit organizations by establishing one
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. Circular A-133 establishes policies that guide implementation of the Single
Audit Act and provides an administrative foundation for uniform audit requirements of non-
Federal entities administering Federal awards. Entities that expend $500,000 (for fiscal years
ending after December 31, 2003) are subject to the Single Audit Act and the audit requirements
in Circular A-133 and therefore must have an annual single or program-specific audit performed
under Government Auditing Standards and submit a complete reporting package to the Federal
Audit Clearinghouse.

We reviewed the Deloitte & Touche, LLP FY 2007 single audit of Battelle Memorial Institute
and Subsidiaries and the reporting package that was submitted to the Federal Audit
Clearinghouse on July 2, 2008 using the 1999 edition of the “Uniform Quality Control Review
Guide for the A-133 Audits” (the Guide). The Guide applies to any single audit that is subject to
the requirements of Circular A-133 and is the approved President’s Council on Integrity and
Efficiency 2 checklist used for performing the quality control reviews. We performed the review
from August 2008 through May 2009. The review focused on the following qualitative aspects
of the single audit:

               �      Qualification of Auditors,

               �      Independence,

               �      Due Professional Care,

               �      Planning and Supervision,

               �      Internal Control and Compliance testing,

               �      Schedule of Expenditures of Federal Awards, and

               �      Data Collection Form.




2
 The President’s Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency
combined into the Council of the Inspectors General on Integrity and Efficiency in accordance with the Inspector
General Reform Act of 2008.


                                                         9

Prior Quality Control Reviews
Since October 1, 2003, we have performed one quality control review of a Deloitte & Touche
Circular A-133 audit. The quality control review identified deficiencies resulting in findings and
recommendations on performance and documentation. Unrestricted IG DoD reports can be
accessed at http://www.dodig.osd.mil/audit/reports.




                                               10

Appendix B. Compliance Requirements
The Deloitte & Touche auditors determined that the following requirements are applicable to the
single audit of the Battelle Memorial Institute and Subsidiaries for the fiscal year ended
September 30, 2007.


          Compliance Requirements                      Applicable            Not Applicable/
                                                                              Not Material
Activities Allowed/Unallowed                               X

Allowable Costs/Cost Principles                            X

Cash Management                                            X
Davis-Bacon Act                                                                     X

Eligibility                                                                         X

Equipment and Real Property Management                     X

Matching, Level of Effort, Earmarking                                               X

Period of Availability of Federal Funds                    X

Procurement, Suspension, and Debarment                     X

Program Income                                             X

Real Property Acquisition and Relocation                                            X
Assistance
Reporting                                                  X

Subrecipient Monitoring                                    X

Special Tests and Provisions                               X




                                              11

Deloitte & Touche Management Comments 





                  12

Battelle Memorial Institute Management
             Comments
                                         Final Report
                                          Reference




                                         Renumbered
                                         as
                                         Recommend
                                         ations 2.a.,
                                         b., and c.




                  13

